                                   NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




    OFFICE OF I'
INSPECTOR GENERAL
        I]
  MEMORANDUM

  From:

  Via:     A

  To:                                         nspector General for Audit

 Date:      arch 28,2000
                    I!
 Re:      Case'Closeout of I99120048, Audit Referral             -
                                                                 6-F
                                                                   '
                    II




  On ~ e c e m b f 30,1999,
                   r
 and Associate Professor
 made allegations against
 its handling of the post-award grant process. The complainant gave a lengthy        ,
 background koncerning difficulties PIS at the institution were having with UAS andits
 mismanagerhent of the post-award process. T h e e n t r a l Administration has
 failed to resiond sufficiently to the research faculty's concerns. The complainant wishes
 to remain anonymous and has not contacted                Internal Audit.

NSFIOIG received a package January 3,2000, from the complainant, which included a
lengthy covgr letter summarizing his concerns, points of contact, eight e-mails betsken
UAS and faculty, two memos, and a copy of the UAS and University contract and
contract s&ary.       The e-mail correspondence demonstrates that o t h e m research
faculty, incl()ding faculty with NSF awards, has experienced post-award problems in
agreement        the complainant's allegations regarding UASI-.           On January 3,
2000,                 faxed a request to,-                UAS Director, for a copy of the
FY ,t1i-g                based on the July 1999 data provided to the Federal Audit
Clearinghouse, that NSF, Dept. of Ed, and NASA were affected by a reportable
condition. After several follow-ups, OIG received the A-133 on March 24,2000.


' UAS is a p-i{bte corporation that handles the administration and accounting of grant funds since the early
1990s. They are contracted by-          to provide numerous services for the university.
               It
            I
            /I
                                                                               Page 2 of 2

On March 8j 2000 the complainant called to bring the OIG Investigator up to date on the
continuing problems research faculty are encountering with UAS. The complainant
forwarded copies of faculty meeting minutes regarding these issues.
            I
Recommendations
           '1
The allegations and issues of the case involve potential institution-wide mismanagement
and inefficidncy of the post-award process. As a result, we are closing the case and
referring thJ matter to OIG Efficiency for review. We recommend an audit of UAS'
             11
post-award ~anagement.
            I
